LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 7, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-303: UNITED STATES OF AMERICA V. JOSE LUIS VAELLO-MADERO
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae the University of Puerto Rico Law School Amicus Justitiae Probono Project
referenced above contains 3,466 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 7th day of September 2021.

